<html>
<title> - TRACKING HEARING #2: GSA STIMULUS FUNDS - UP, OUT, AND CREATING JOBS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          TRACKING HEARING #2: 
                          GSA STIMULUS FUNDS - 
                       UP, OUT, AND CREATING JOBS 

=======================================================================

                                (111-29)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 5, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-593 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ebadi, Shapour, St. Elizabeth's Project Executive, U.S. General 
  Services Administration........................................     6
Gallagher, Michael, Assistant Deputy Commissioner, Budget, 
  Finance and Management, Social Security Administration.........     6
Guerin, William, Project Management Office Executive, U.S. 
  General Services Administration, accompanied by Dawud Abdur-
  Rahman, Development Director, Headquarters, Department of 
  Homeland Security..............................................     6
Miller, Brian, Inspector General, U.S. General Services 
  Administration.................................................     6

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Pennsylvania.............................    41

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Gallagher, Michael...............................................    43
Guerin, William..................................................    46
Miller, Hon. Brian...............................................    53

                       SUBMISSIONS FOR THE RECORD

Gallagher, Michael, Assistant Deputy Commissioner, Budget, 
  Finance and Management, Social Security Administration, 
  response to question for the record............................    26
Miller, Hon. Brian D., Inspector General, U.S. General Services 
  Administration, supplemental testimony.........................    62

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  TRACKING HEARING #2: GSA STIMULUS FUNDS - UP, OUT, AND CREATING JOBS

                              ----------                              


                         Tuesday, May 5, 2009,

                  House of Representatives,
              Subcommittee on Economic Development,
                 Public Buildings and Emergency Management,
                    Committee on Transportation and Infrastructure,
        Washington, DC.
    The Subcommittee met, pursuant to call, at 2:18 p.m., in 
Room 2165, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [chairwoman of the Subcommittee] presiding.
    Ms. Norton. I apologize to the committee for my tardiness 
in starting this committee hearing. I was detained off campus 
where I was speaking. I do not know what is happening in D.C.--
you have to detour to get back to the office--but I will find 
out.
    The American Recovery and Reinvestment Act, signed into law 
on February 17, 2009, provided $5.55 billion for the General 
Services Administration. I am especially pleased to be chairing 
the Subcommittee on Economic Development, Public Buildings and 
Emergency Management at a time when Congress has provided 
unprecedented funds for repair and rehabilitation to the GSA: 
$4.5 billion to convert federally owned GSA buildings into 
high-performance green buildings; another $300 million for 
border stations and land ports of entry; and an additional $750 
million for repair, alteration and construction of other 
Federal buildings and courthouses, of which $450 million is 
allocated to the new Department of Homeland Security 
Headquarters project located on the old St. Elizabeth's west 
campus in the District of Columbia.
    This second tracking hearing on GSA's progress on the 
creation of jobs and on the repair and rehabilitation of 
Federal buildings follows the Full Committee hearing last week, 
featuring all of the Subcommittees, entitled "Recovery Act: 10-
Week Progress Report for Transportation and Infrastructure 
Programs."
    The Transportation and Infrastructure Committee is 
requiring that all funds be obligated by September 30, 2010, 
with the remainder available until September 30, 2011. Note 
that word "available." Move it or lose it. However, GSA stands 
out among Federal agencies because this agency does not 
distribute its funds to States or localities, but itself is 
fully accountable as a Federal agency for the necessary job 
creation, work and timelines on Federal buildings.
    Moreover, because the GSA funds will be spent on Federal 
structures, taxpayers will get an additional bang for the 
Federal buck with energy savings that are central to all of 
these GSA projects. So important is GSA's dual role as a 
Federal agency, for which the administration and the Congress 
is also accountable, that the White House announced the GSA 
projects and locations itself. Thus, this Subcommittee has a 
particularly important oversight role to ensure that the GSA 
and the Federal Government lead by example and quickly create 
jobs. Consequently, I intend to frequently convene hearings to 
track the progress in obligating funds and in creating jobs to 
help GSA spot issues early. The GSA project list, now online, 
covers all 50 States, the District of Columbia and the 
territories.
    I urge Members of the Subcommittee and other Members of 
Congress to personally monitor job creation in their districts 
and States.
    Today, I am releasing the 22 projects in my district that 
include six high-performance green buildings, full and partial 
building modernizations, and 16 other high-performance green 
building projects.
    Because the District of Columbia is the seat of the Federal 
Government, with most of its prime land off the local tax rolls 
to be used for Federal office space, the District ranks number 
one in government projects in need of work, with Texas ranked 
number two. However, GSA prepared its list of potential 
projects based entirely on its backlog of repairs needed to 
maintain its own large inventory throughout the Nation.
    The Committee insisted, our Subcommittee insisted, that all 
projects contain a significant energy saving component, and GSA 
refined its list to incorporate energy efficiencies and new 
technologies along with contract timelines. As a result of 
GSA's projects, we expect to move Federal Government 
procurement to a lead position for energy-efficient buildings, 
allowing taxpayers to receive the rewards of lower energy 
costs.
    The congressional focus on the repair of existing Federal 
buildings will also preserve the valuable federally owned 
inventory for occupancy and for other vital needs. Importantly, 
providing jobs that stimulate the economy is the primary 
purpose of the stimulus bill. Our Subcommittee staff has worked 
closely with GSA to assure that its Recovery Act projects can 
be implemented quickly while providing many jobs at a variety 
of skill levels.
    Because of its proven twin effects on stimulating the 
economy and on putting people to work quickly, infrastructure 
is at the heart of the Recovery Act itself. It was therefore 
impossible to avoid the reality that the training deficit in 
construction jobs among some Americans could produce disputes 
when federally funded jobs go to the already trained, mostly 
white male workforce. However, these workers, these 
construction workers, have faced a long period of unemployment 
and have one of the highest unemployment rates in the country. 
Considering the steep rise in unemployment for minorities, 
women and the like, however, the last thing the country needs 
is racial, ethnic, or other group tension.
    We have taken some steps to avoid this division among 
workers and allied minorities and women. Consistent training 
has been the major barrier for minorities and women in 
construction since the Federal Government ceased funding a 
large management-labor training program in 1980, resulting in 
too few journeyman apprentices and other trained workers for 
many of the trades. However, today's unprecedented amount of 
stimulus funds committed to infrastructure and job creation is 
a call to action to avoid missing this opportunity by mounting 
well-designed pre-apprenticeship and apprenticeship training 
that can lead to high-paying journeymen jobs.
    If we are vigilant, the economic crisis which has created 
the worst of times can create new opportunities. We have gotten 
off to a good start in this Recovery Act with $3 million for 
on-the-job pre-apprentice and apprenticeship training in the 
GSA section of the bill and $20 million for training in the 
highway section.
    The training money in the GSA section raises several 
issues, because the amount is so small, about where and how 
much money can be efficiently spent to produce the intended 
results. Both sections of the bill are woefully insufficient 
for the training, and I intend to introduce a bill for 
mandatory training in the upcoming highways and transit 
reauthorization bill.
    A good amount of money has been available in the 
transportation bill for a decade--with one-half of 1 percent of 
State highway dollars available for training programs. However, 
only 17 States have chosen to spend some of their funds for 
training, leaving minorities and women untrained, and 
abdicating the responsibility of the State and Federal 
Governments to prevent discrimination when Federal dollars are 
used.
    In the interim, when acting administrator Paul Prouty 
testified at last week's hearing, I suggested that GSA consider 
working with the Department of Transportation to devise the 
most effective way to allocate these funds on a nationwide 
basis. Both agencies have too little funds for the training 
necessary, but together they may be able to avoid a duplication 
of efforts and may be able to perhaps achieve some economies of 
scale.
    At today's hearing, we will hear in greater detail from GSA 
about how it expects to obligate funds to create jobs, to 
ensure quality construction, and to create and adhere to the 
necessary timetables. GSA Inspector General Brian Miller has 
already acknowledged that the rapid spending of government 
funds creates considerable risks. We have learned that lesson 
in the post-Katrina period as well as with spending associated 
with the Iraqi war. We will also hear from a GSA customer, the 
Social Security Administration, that will benefit from these 
funds.
    I want to thank today's witnesses, and I very much look 
forward to their testimony.
    May I ask now if the Ranking Member has any opening 
remarks?
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Let me first 
thank you for holding this oversight hearing today on GSA's 
Recovery Act funds.
    It seems that Congress is now in the position of having put 
the cart before the horse by, frankly, passing legislation that 
contains no oversight and yet demanding, after the money is 
spent or has been out the door, to have some oversight, which 
is why this is such an important hearing.
    We recently saw the consequences of, frankly, hastily 
enacted legislation, significant and expensive legislation 
without oversight and with the ongoing scandals that we 
continue to read about and see regarding and resulting from the 
TARP money.
    That is why, again, I want to thank the Chairwoman for 
holding this hearing today--to allow us some opportunity for 
oversight of the funds for the GSA projects.
    As the Chairwoman said, the Recovery Act included $5.5 
billion for the GSA Federal Building Fund. Considering this 
huge investment, we know that the potential is there for waste, 
frankly. The Chairwoman, herself, just talked about that. The 
Federal real property has been on the GAO's high-risk list 
since 2003, and according to the GAO, longstanding problems in 
the Federal real property area have multibillion-dollar cost 
implications to the taxpayer, obviously, and to GSA. So the 
workload for GSA, with regard to Federal buildings, has tripled 
now under this legislation, creating, obviously, more potential 
for problems with mismanagement, with waste and with cost 
overruns.
    So the last thing, obviously, that American taxpayers need 
or want to see are projects that are started and then all of a 
sudden finished because they are too costly, or because there 
is not enough money, or because the money is misspent, or 
because they are coming back to Congress for more money because 
those funds were not sufficient for the projects that were 
started. Again, we need to make sure that the money is well 
spent, and that is why I want to thank the Chairwoman for this 
hearing.
    At a hearing in January, the GAO recommended three guiding 
principles for GSA projects funded under this Recovery Act: 
Number one, it was to create well-defined goals based on 
identified areas of interest. Number two, it was to incorporate 
performance and accountability into funding decisions. Number 
three, it was to employ the best tools and approaches to 
emphasize return on investment.
    Here lies a bit of the problem. None of these practical 
suggestions to help avoid risk in spending of taxpayers' money 
was incorporated into the bill, which is, I think, too bad.
    Now, however, I am interested in knowing, again, under the 
employment of these principles, if that is the objective of 
GSA--to make sure that we do not have the problems that we 
could have. So, while the stated purpose of the Recovery Act 
was to stimulate jobs, the bill also set aside $4.5 billion of 
the $5.5 billion to convert GSA facilities to high-performance 
green buildings, as identified in section 401 of the Energy 
Independence and Security Act.
    So, obviously, we all recognize that energy conservation 
and independence is an important goal. It is a very important 
goal. However, it is also important to realize that this was a 
stimulus bill. Ensuring tax dollars included in the bill are 
there to create jobs has to be the primary goal, and I think it 
is, but it has to be the primary goal of GSA. Unfortunately, 
and we had this conversation last week, we have yet to see the 
number of jobs that are going to be created by those funded 
projects, and I am hoping those will be forthcoming.
    In addition, among the requirements of the Energy Act are 
reducing energy, water and material resources use, improving 
indoor environmental quality, including acoustic environments, 
and considering the indoor and outdoor effects of the building.
    Again, that is part of the act, so therein lies part of the 
challenge: create jobs or do this other part that is also 
required. I for one think, obviously, that the purpose of this 
bill is to create jobs and to create them immediately.
    I am pleased that the Chairwoman is holding this oversight 
hearing. She is very committed to doing this, and I want to 
thank her for that. I do remain concerned there is still the 
tremendous potential for mismanagement and for waste, and the 
number of jobs that these projects will create has yet to be 
demonstrated.
    So, while many of the projects may be worthy--and frankly, 
even some of them very necessary--we must ensure that such 
large commitments of taxpayer dollars are properly used, that 
the money is properly managed and, obviously, that the priority 
that Congress was hoping for, which is job creation, continues 
to be priority number one.
    So I look forward to hearing from all of you. I really 
thank you all for being here and for spending your time with us 
today. Once again, I will end by thanking the Chairwoman for 
having what is a very important oversight meeting. Thank you.
    Ms. Norton. Thank you very much.
    Mr. Diaz-Balart, it was a pleasure to go to Florida with 
you last Friday and to learn so much. I think that we will 
prepare the entire country for the coming hurricane season.
    I am pleased to recognize Ms. Edwards of Maryland.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
the panel this morning.
    I am excited to be here and to hear the progress that is 
being made in GSA. I just want to take a moment and recognize, 
along with you, that I know that you have the capacity at GSA 
to do not just the job creation that we envisioned under the 
Recovery and Reinvestment Act, but also to make sure that we 
are building buildings for the future and that we are 
transforming buildings for the future.
    I note that I see, with the GSA team, a fellow who was 
deeply involved in moving forward the amazing green building at 
the Food and Drug Administration, which is in my district, and 
I would like to see those kinds of buildings with Federal 
funds--Federal buildings--all across the country because, in 
the long run, it will save us a ton of money.
    I know that in the Recovery and Reinvestment Act, Madam 
Chairwoman, part of what we recognize is that we want to create 
jobs in the short term and that we want to create opportunities 
and savings for the taxpayers in the future. And so I look 
forward to hearing that aspect of what you all have in mind and 
to working with you over these next several months and years to 
make sure that we can do what the Chairwoman has in mind as 
well, and that is to create job opportunities for the thousands 
and thousands of people out there who could be trained up to 
engage in productive, economic activity in support of the 
mission of GSA and in support of the taxpayer, if we could just 
get them the skills base to do that. So thank you for being 
here today.
    Madam Chairwoman, thank you very much for holding this 
important oversight hearing.
    I would say in conclusion that while there may not be 
direct oversight authority as we move forward with looking at 
the expenditure in the American Recovery and Reinvestment Act, 
Congress always has broad authority to look at the way taxpayer 
dollars are spent, and that is exactly what we are doing here 
today. Thank you.
    Ms. Norton. Thank you very much, Ms. Edwards. May I 
congratulate you on your performance at Shakespeare last night 
where you were typecast as an environmental activist.
    Mr. Cao, do you have any opening remarks?
    Mr. Cao. Thank you, Madam Chairwoman.
    I would like to thank the members of the panel for being 
here today. I am very much interested in the recovery process 
of the Second Congressional District. I know that there are 
various projects in the district that are presently being 
used--the stimulus money being used--in connection with several 
of the projects down there in the district. I am interested in 
hearing about those projects and about how taxpayer money is 
being used to renovate or to improve some of those projects 
down there.
    I would just like to thank Mr. Brian Miller personally for 
being a member of the Department of Justice Hurricane Katrina 
Task Force because, right after Katrina, we faced a tremendous 
crime issue in the district. Your help, along with others, was 
very appreciated, and I hope that you can continue to assist us 
in that area, if possible.
    So, with that, thank you very much, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Cao.
    I am just playing tic-tac-toe with my Ranking Member here. 
No, we were listening to you, but we were having a side 
conversation.
    Meanwhile, we are very pleased to welcome today's 
witnesses: William Guerin, who is the Project Management Office 
Executive for this project, who is accompanied by Dawud Abdur-
Rahman, who is the Development Director for the largest of the 
projects--the headquarters of the Department of Homeland 
Security; Brian Miller, the Inspector General for GSA; and 
Michael Gallagher, the Assistant Deputy Commissioner of Budget, 
Finance and Management at the Social Security Administration.

    TESTIMONY OF WILLIAM GUERIN, PROJECT MANAGEMENT OFFICE 
EXECUTIVE, U.S. GENERAL SERVICES ADMINISTRATION, ACCOMPANIED BY 
    DAWUD ABDUR-RAHMAN, DEVELOPMENT DIRECTOR, HEADQUARTERS, 
   DEPARTMENT OF HOMELAND SECURITY; BRIAN MILLER, INSPECTOR 
 GENERAL, U.S. GENERAL SERVICES ADMINISTRATION; SHAPOUR EBADI, 
   ST. ELIZABETH'S PROJECT EXECUTIVE, U.S. GENERAL SERVICES 
    ADMINISTRATION; AND MICHAEL GALLAGHER, ASSISTANT DEPUTY 
 COMMISSIONER, BUDGET, FINANCE AND MANAGEMENT, SOCIAL SECURITY 
                         ADMINISTRATION

    Ms. Norton. Let us begin in the order I have just 
indicated.
    Mr. Guerin. Good afternoon, Madam Chair, Ranking Member 
Diaz-Balart, Mr. Cao, and Ms. Edwards. Thank you very much for 
inviting us to participate on the panel today.
    My name is William Guerin, and I am the recovery executive 
in our newly established Recovery Program Management Office in 
GSA's Public Building Service.
    The funds Congress provided us through the American 
Recovery and Reinvestment Act are a sound investment. First, 
these funds will stimulate growth in the construction and real 
estate sectors. Second, it will help us reduce energy 
consumption and improve the environmental performance of our 
inventory. Third, it is an investment in the existing 
infrastructure. We recognize that this is not business as 
usual.
    To better implement our part of the Recovery Act, we 
created a program management office. The PMO is nationally 
managed and is regionally executed. At the national level, we 
are staffed with a combination of in-house experts, high-
performing employees, and industry hires. The PMO is further 
supported by contract and consultant resources. I was recently 
named as the recovery executive to lead this Office. In 
addition, an executive steering committee, headed by our Deputy 
Commissioner, advises the PMO. The steering committee developed 
a nationwide program strategy and helped set priorities. They 
will approve any changes to the project list and will address 
national customer concerns.
    In terms of project execution, we have an aggressive 
schedule. We are streamlining our business processes and 
approaches to meet that schedule. For example, we created three 
zone committees. The zones are geographically based to monitor 
projects at the regional level. Each zone is led by a zone 
executive who assists in tracking and in monitoring our 
projects. They will be able to shift support resources to 
projects and to regions as needed. In effect, the PMO serves as 
an early warning system for projects that are not meeting 
anticipated targets, and we just appointed our three zone 
executives last week.
    Since enactment of the Recovery Act, we have moved quickly. 
On March 31, we delivered a list of 254 projects to Congress. 
These projects fall into three categories: new construction, 
including $1 billion invested in 17 projects; full and partial 
building modernizations, investing $3.2 billion in 43 projects; 
and limited scope, high-performance green building projects 
where we have invested $807 million to repair and to enhance 
building infrastructure systems in more than 194 projects.
    To date, we have awarded close to $100 million, and we 
currently have a number of solicitations on the street. We 
expect to award at least another $100 million in recovery 
projects by early June. Of the $5.5 billion we received, our 
goal is to obligate $1 billion by August 1st and another $1 
billion by the end of the calendar year. We have target dates 
for project awards in each quarter to ensure we obligate $5 
billion by the end of fiscal year 2010 and an additional $550 
million by the end of 2011.
    As described previously in our written statement, we use 
criteria in selecting projects for our spend plan that would 
put people back to work quickly and that will transform our 
Federal buildings into high-performance green buildings. For 
many of the common high-performance green building elements, we 
have developed standard scopes of work. These standard scopes 
of work will be shared nationwide and with other agencies 
engaged in Recovery Act work. In addition, we are using 
regional and national contracts to support our reporting and 
tracking efforts and program management activities.
    Finally, pre-apprenticeship and apprenticeship programs 
will be an integral part of our Recovery Act projects. These 
programs will be established as contractual requirements for 
our building projects. The programs will be modeled after GSA's 
successful program in the National Capital Region, through 
which at least 840 people at 15 projects have been trained and 
employed since the program's inception in 2002.
    Joining me today is Dawud Abdur-Rahman, the Development 
Director for the DHS headquarters at St. Elizabeth's.
    Madam Chair, Ranking Member Diaz-Balart and Members of the 
Subcommittee, this concludes my prepared statement. I have 
briefly described our activities as part of the American 
Recovery and Reinvestment Act. We look forward to working with 
you and with Members of the Subcommittee as we engage in this 
important work.
    We have just appointed our three zone executives, who fill 
out our whole team in the central office. I will be pleased to 
answer any questions that you or other Members of the 
Subcommittee may have.
    Ms. Norton. Mr. Abdur-Rahman, do you have any statement at 
this time?
    Mr. Abdur-Rahman. No, Madam Chair, I do not.
    Ms. Norton. Well then, will you be prepared then to answer 
questions later?
    Mr. Abdur-Rahman. Yes.
    Ms. Norton. We are glad to have you here.
    Mr. Miller.
    Mr. Miller. Thank you, Madam Chair. Good afternoon.
    Madam Chair, Ranking Member Diaz-Balart, Members of the 
Committee, thank you for inviting me to testify at this 
important hearing.
    These Recovery Act projects are monumental. Fifty years 
from now, people will be talking about how these Recovery Act 
projects have transformed the way government delivers services 
to the American people. It is important that we get these 
right. Thank you for having this hearing.
    As you know, GSA's normal construction budget for building 
projects is about $1.3 billion a year. The Recovery Act 
provides GSA with an additional $5.55 billion in construction 
funding and $300 million for acquisition of energy-efficient 
vehicles. The increase in construction funding alone is four 
times GSA's typical construction budget for a single year. The 
Recovery Act requires GSA to obligate the majority of those 
funds within a 20-month period. In addition to funds going 
directly to GSA, significant additional amounts will flow 
through GSA from other agencies. These additional amounts 
include, for example, $620 million from DHS, $90 million from 
State, and possibly $500 million from the Social Security 
Administration.
    The bottom line is that GSA is being asked to spend and to 
manage five times more than it normally does in a significantly 
shortened time frame.
    The Office of Inspector General has been meeting regularly 
with the agency both to monitor Recovery Act activities and to 
ensure that we have a clear understanding of the agency's 
plans. This postworking relationship exists partly due to the 
efforts of Acting Administrator Paul Prouty, and I commend him 
for his collegiality. We have also developed strategies to 
conduct more timely reviews in recognition of the needs of the 
agency to act quickly on Recovery Act projects.
    The mantra from the movie "Field of Dreams" is, if you 
build it, they will come. Well, GSA is building it now. 
However, some of those who will come are criminals, fraudsters 
and cheats. If contracting for Hurricane Katrina and the war in 
Iraq taught us anything, it was that the quick government 
spending of large amounts of money creates considerable risks.
    To address these risks and to meet the time frames set out 
in the Recovery Act, we have developed new ways to respond 
quickly. We have adopted a quick response approach, using 
auditors and investigators to rapidly follow up on Recovery Act 
complaints and referrals, including those forwarded to us by 
the Recovery Accountability and Transparency Board. We have 
established a core team of auditors, and we will be using a 
streamlined approach to performing reviews.
    The amount of funds and the short time frame will create 
significant challenges for GSA. I would like to highlight what 
I see as four of those challenges.
    First, I believe that the most critical challenge will be 
the need for additional qualified personnel, especially 
contracting officers and project managers. Because GSA may not 
be able to hire sufficiently qualified new employees to meet 
this need, GSA is considering hiring contractors to fill the 
immediate void and to assist with the increased workload.
    This blended workforce, however, will create a second 
challenge; namely, the additional risks related to security, 
conflicts of interest, and to the management of contractors.
    The third challenge, based on problems identified in the 
past, will be managing projects to prevent cost escalations 
beyond approved funding, resolving claims, and avoiding project 
delays.
    A fourth challenge will be managing unbudgeted customer 
needs.
    As it struggles to meet these challenges, GSA is like a 
single-engine freight train that suddenly must carry four times 
its normal load with the addition of more freight cars. The 
anticipated addition of even more cars to that train, as 
agencies start turning over their project funding to GSA, will 
put even more strain on the GSA engine. If it hits a hill or a 
bump, the engine may quickly fry and burn out.
    Thank you for your attention. I will be happy to answer any 
questions.
    Ms. Norton. Thank you, Mr. Miller, for your testimony.
    Mr. Gallagher.
    Mr. Gallagher. Madam Chair, Ranking Member Diaz-Balart and 
Members of the Subcommittee, good afternoon. I am Michael 
Gallagher, Assistant Deputy Commissioner for Social Security's 
Office of Budget, Finance and Management.
    On behalf of Commissioner Michael Astrue, I thank you for 
the opportunity to discuss our partnership with the General 
Services Administration to construct a new data center using 
$500 million appropriated to us in the Recovery Act. This new 
center will replace our aging, 30-year-old National Computer 
Center. In addition to being state of the art, the new facility 
will incorporate green building technology and will use new 
energy-efficient equipment and processes.
    To ensure the project is completed on time, on budget, and 
in full compliance with the Recovery Act requirements, we and 
GSA have assigned our best and most experienced project 
managers. We look forward to this important collaboration, and 
I would like to thank GSA for its leadership in this vital 
project.
    Our current data center is the technological heart of the 
agency, housing critical computer operations and essential data 
for prompt and accurate benefit payments to tens of millions of 
Americans. Let me put this work into context:
    Last fiscal year, we paid over $650 billion to more than 52 
million Americans. We currently process an all-time high of 
over 75 million business transactions per day. To support our 
disability workload, we store nearly 370 million imaged health 
records to which we add 2 million more records each week. To 
manage benefits annually, we exchange over 1 billion data files 
with Federal and State governments and businesses. Given the 
nature and volume of these workloads, it is clear that the 
successful construction of the new data center is essential for 
us to continue serving the American people.
    With the Recovery Act funding, we at GSA will ensure that 
the new data center will be operational as our current facility 
nears the end of its functional life. I am pleased to report to 
you that we and GSA are moving aggressively to build this new 
facility. GSA has already hired a construction management firm 
for this project, and it has hit the ground running. In 
addition, we and GSA are formulating specific requirements to 
construct a state-of-the-art data center that meets industry 
standards, developing the site selection criteria and 
developing a detailed construction plan. Now, GSA is primarily 
responsible for executing these steps. Nevertheless, we will 
provide input and oversight throughout the process to ensure 
the facility is designed to meet our requirements.
    Our key milestones for this project are acquiring the site 
in the second quarter of fiscal year 2010, awarding the design-
build contract in the second quarter of fiscal year 2011, and 
completing construction in the first quarter of fiscal year 
2014.
    GSA is working closely with us and industry experts to 
review procurement options so that we can expedite this project 
without compromising quality or accepting undue risks or added 
costs. Our joint efforts will meet all of the accountability 
and transparency objectives set forth by the administration and 
by the Congress when these funds were appropriated.
    Again, we thank the Congress for this important 
appropriation, and we extend our appreciation to GSA for 
working so diligently with us to construct the new data center. 
Thank you for the opportunity to speak with you today, and I 
look forward to answering your questions.
    Ms. Norton. Thank you very much, Mr. Gallagher.
    Mr. Miller, on page 2 of your testimony, you testify as to 
some facts that speak for themselves when you say that the 
increase in construction funding alone is four times GSA's 
typical construction budget in a single year. The Recovery Act 
requires GSA to obligate the majority of those funds in a 20-
month period. This Subcommittee is well-acquainted with the 
problems of timing at GSA. It is one of the banes of our 
existence. So we have two issues here I would like to raise 
with you.
    One is, given what you know and what, I must assure you, 
this Subcommittee knows about the pruning of the agency with 
staff, such as to hire staff, there is sometimes legendary 
inefficiency. There is the need to spend these funds quickly to 
produce quality work without conflicts of interest.
    Sir, can you testify here today that you think the agency 
is capable of meeting these standards?
    Mr. Miller. Madam Chair, that is an excellent question.
    The role of an inspector general is to review what the 
agency is doing, and we are reviewing the agency's planning 
process and what they plan to do to try to meet these goals, 
and we will continue to do that. Perhaps Mr. Guerin might want 
to address this question more directly.
    Ms. Norton. Well, he will tell me ``yes,'' you see. That is 
why we found you to tell us the truth.
    Believe me, we have a great admiration for GSA. If my 
remarks sound jaundiced, I want you to know the very fact that 
Mr. Gallagher and the other agencies, by the way, have handed 
over money to GSA to do their work, when they could, I guess, 
have hired a contractor or something, speaks to the high regard 
in which the GSA is held.
    We also have seen the agency--the "pruning" of staff is 
quite a polite word for what has happened to this agency over 
the last several years. Yet, even if it were fully staffed as 
it were, let us say, when I came to Congress a century ago, it 
would have been a lot to put on the agency to say: Do this. Do 
it fast. Do it well. Do it so the IG salutes you.
    I don't expect you to deprecate the agency ahead of time, 
but I have to ask you, sir:
    I know in your testimony on page 5 that you speak, as you 
have just in answer to my question about a quick response 
approach, about using auditors and investigators to "rapidly 
follow up on Recovery Act complaints and referrals."
    Now, the Subcommittee is far more interested in pre-audits 
and in understanding the terrible time constraints you are 
under that keep an agency which is known for slow work--maybe 
in order to make sure they get it right--but to keep the agency 
from making mistakes while the train is running, as you say, 
four times the rate it usually does.
    Are you prepared to do pre-audits or something of that 
nature to help GSA weather this extraordinary storm we have put 
upon it and insist that it do?
    Mr. Miller. Madam Chair, we are prepared to do that. We are 
not relying on the old yellow book audit standard. They take 
too long. Traditional audits take too long. We are adopting a 
more rapid approach, akin to the critical point evaluations 
that you may be familiar with or may not be familiar with, and 
we hope to review these projects early, very early, and 
establish points at which we will get feedback back to the 
agency. We will provide reviews to the agency quickly so that 
they can change direction if they are going in the wrong 
direction, or if they have a mistaken assumption, we will be 
able to inform them. We are attempting to----
    Ms. Norton. Do you have the staff to do that, Mr. Miller? 
We funded you as well. All of the Stimulus Act funds have these 
extra funds, and we realize we are putting the burden on you as 
well. Do you have the funds to do not only the "oh, gotcha" 
stuff that IGs, of course, do so well but also the "here is how 
not to get you"?
    Mr. Miller. Well, we could use more auditors and 
investigators. We are reassigning----
    Ms. Norton. How big is your office, and how many additional 
auditors and investigators have you been authorized to hire?
    Mr. Miller. We have about 300 total individuals in the 
office, a little more than that.
    Ms. Norton. Now, I know you do a lot of work with GSA 
contracts aside from the Public Building Service. I am 
interested in the Public Building Service's auditors and 
contractors because that is where this money, I think, is 
going. How many are in that service now, and how many 
additional have you been authorized to hire?
    Mr. Miller. We have seven FTEs who are funded by the 
Recovery Act.
    Ms. Norton. Seven?
    Mr. Miller. Seven. We are reassigning other auditors from 
other projects. As you have noted, we have statutorily required 
audits in other areas that we have to perform, not the least of 
which is a review of customer service centers that we are 
required by statute to do with the Department of Defense IG on 
the acquisition side.
    Ms. Norton. Is this staff all together? So that is separate 
work, as far as I am concerned, the Department of Defense work.
    Mr. Miller. I agree.
    Ms. Norton. So, given the fact that Public Building Service 
is the largest part of GSA, I am looking for how much of your 
staff is devoted to PBS work.
    Mr. Miller. Well, under the act, we were funded seven 
additional FTE, seven additional slots.
    Ms. Norton. Are most of those other auditors not doing PBS 
work?
    Mr. Miller. Most of those will go to Public Building 
Service work.
    Ms. Norton. Okay.
    Mr. Miller. There is additional money in the Recovery Act 
for fleet--the energy efficient vehicles--so we will be looking 
at those, too. The only reason I mention the other----
    Ms. Norton. Does the GSA have authority over the fleet 
vehicles as well?
    Mr. Miller. Yes, it does. The only reason I mentioned the 
work with the DOD IG is that we are trying to move our 
resources to marshal them to look at Recovery Act funds so that 
we can spot issues early, as you said. But we do have limits, 
and we are stretched thin, so we do need auditors and 
investigators.
    Ms. Norton. Now, I am very concerned about another issue 
you testified about, concerning the need for more staff, 
bringing on more staff quickly. I am also on another Committee 
where the entire Federal Government is legendary for how long 
it takes people to get on staff. So some of the best and the 
brightest say, "Later. I bet I can get hired tomorrow at some 
big private firm."
    Let me disaggregate this. When it comes to what is 
mentioned on page 7 of your testimony--security, conflicts of 
interest, the managing of contractors--when my staff heard me 
earlier ask a question about how many retirees, they said, "Oh, 
Congresswoman, I thought you wanted new employees," you know, 
"to get more jobs." I do, but I am desperate, and I would 
assume that retirees, if you could get them, would already meet 
the security, conflict-of-interest and other such requirements.
    What percentage of these new people are going to be 
retirees? Do you expect them to be retirees? Maybe I should 
also ask this of Mr. Guerin. What percentage will be 
contractors?
    Now, I am assuming that a contractor who is working on 
government work will have to go through certain kinds of 
conflicts of interest and security doors that others would have 
to go through only briefly. So I need to know how many of each 
kind of employee we are likely to get working on this matter, 
because it has a lot to do with how quickly we get going. I 
also assume that if you are a contractor, you need to be 
trained. God help us if we got a whole new training module to 
get into. So I want to get down into personnel really quickly, 
since nothing gets done in this world unless you have got the 
best people who work on overtime and then some to get it done.
    Mr. Miller. Madam Chair, thank you for asking that.
    We are trying to hire retired annuitants. We have several 
auditors who have a great deal of experience, who have retired 
from GSA, who would be willing to work for us again, and we 
would love to hire them again. Also, we were hoping to pick up 
some retired auditors from DCAA. We are currently working with 
OPM to obtain the authority to hire retired annuitants.
    Ms. Norton. Do you think we will be able to get more 
retirees than contractors or not, Mr. Miller?
    Mr. Miller. Well, from my office, we are hoping to get more 
retirees.
    Ms. Norton. How about you, Mr. Guerin?
    Mr. Guerin. Congresswoman, we have identified upwards of 20 
annuitants who could potentially come back to work for us. Just 
in reaching out recently, not everybody is interested in coming 
back, of course, and they are concerned about losing so many of 
their retirement funds as part of that process, but we are 
actively----
    Ms. Norton. Is that still the law here? Let me ask you: Is 
it still impossible for an annuitant? I thought we made some 
changes in that.
    Mr. Guerin. I think they reduced the annuity for people who 
are coming back. That is my understanding, Congresswoman.
    Ms. Norton. Mr. Miller, do you know?
    Mr. Miller. Madam Chair, we are working with OPM to obtain 
that authority. Currently, my office does not have that 
authority, and I understand that GSA does not have the 
authority to hire retired annuitants without their waiving 
their retirements.
    Ms. Norton. Oh, have mercy. Do you mean they have not 
instantly done that?
    Mr. Miller. They have not. We are working with OPM, and we 
are optimistic that they will do it shortly.
    Ms. Norton. Moan. Moan. Moan. Well, that is something--
neither office has it. Do you know how many agencies have it? I 
am on the Oversight and Reform Committee, and here I am under 
the illusion that we have already understood how important that 
is, quite apart from the stimulus funds in certain 
circumstances, and GSA has needed it for a long time. Do you 
know how many offices have this? Do most offices have it?
    Mr. Miller. Madam Chair, I have been trying to get this 
authority very quickly because we have about 10 to 15 retired 
annuitants who would come to work for us. I have talked to 
other IGs, and a few of the other IGs have the authority 
already, but it is a process.
    Ms. Norton. You know, I want to say to the staff director, 
while I sent you out of the room to fetch my good friend whom I 
knew had some questions, we have just learned that GSA, 
including the IG, has no authority to hire retired annuitants 
as some agencies do. By the close of business tomorrow, would 
staff let me know if GSA has that authority or not. This is 
crippling. We have already had to pull Mr. Guerin, and 
everybody else from GSA, from everything else they were doing 
just to get started.
    I am going to go to the Ranking Member, and I then want to 
go to Ms. Edwards, who I know has been waiting. Forgive me for 
going on so long.
    Mr. Diaz-Balart. Thank you. By the way, it was not a 
century. I just want to defend you here.
    Ms. Norton. Thank you very much. Just don't tell them how 
long it has been.
    Mr. Diaz-Balart. Right. Right. Thank you, Madam Chairwoman.
    Mr. Guerin, one of the things--and I have mentioned this 
before in other hearings, but the Recovery Act includes money 
for Federal buildings and for U.S. courthouses. In addition, 
the Recovery Act authorizes GSA to initiate design, 
construction, repair, alteration, and other projects through 
existing authorities of the administrator.
    Now, GSA has an existing authority to acquire properties. 
This is to strategically acquire property, you know; for 
example, to help save stalled buildings that may be out there 
that would create jobs. Obviously, it would help the 
neighborhood, and it would help the whole area, but it would 
also create jobs. These are buildings, you know, that were 
starting to go up and that are now dead, frankly. And there are 
a bunch of them out there, unfortunately, throughout the entire 
country. You know, GSA's purchase opportunity program in the 
1980s did a heck of a good job in creating opportunities for 
the taxpayer to save money precisely by doing that, and so I am 
hoping that you are looking at that. Are you? If not, why not?
    Here we have an opportunity to create jobs. Also, here we 
have an opportunity to, in the short and long term, help the 
taxpayer in a really substantial way while creating jobs. It is 
not something where you have to reinvent the wheel. It was done 
by GSA in the 1980s. Where are you?
    Mr. Guerin. We do have the authority.
    Mr. Diaz-Balart. And you were successful in the 1980s.
    Mr. Guerin. Yes, and we are continuing to look at using 
that authority judiciously where we can afford to do that with 
projects. We are not doing that through the Recovery Act. We 
looked at those projects. Again, as you said, the new 
construction program was an opportunity for us to complete 
Federal buildings, and we thought the legislation was written 
in a way that that was the target of the legislation--to take 
care of our Federal building program. We have quite a backlog 
of Federal buildings--courthouses and land ports of entry. So 
we looked at that.
    We also included a couple of projects that were going to be 
lease projects but that are now being converted to Federal 
buildings, including in Billings, in Bakersfield, and an FBI 
building in San Juan. I believe there is one other one, 
Congressman. So we converted several leases to ownership 
specifically for that purpose.
    Mr. Diaz-Balart. Which saves a lot of money for the 
taxpayer in the long term?
    Mr. Guerin. Yes.
    Mr. Diaz-Balart. That should free up some money for you. 
The bottom line is you have projects in the pipeline. Now you 
are going to be able to do them. Is that going to free up some 
money for you?
    Mr. Guerin. It does not free up money in the Recovery Act, 
but in the future years, obviously, we will not be leasing 
those buildings. So, in future years, it will allow us to use 
our leasing money more effectively.
    Mr. Diaz-Balart. Right. So it does free up money in future 
years?
    Mr. Guerin. Yes.
    Mr. Diaz-Balart. All right. I am trying to be brief, Madam 
Chairwoman. I know we were called for votes.
    Can you elaborate a little bit on your position? What is 
it, Project Management Office Executive?
    Mr. Guerin. For the Program Management Office, yes.
    Mr. Diaz-Balart. Can you elaborate a little bit about your 
structure and what that is and how that works and about what 
you will be doing?
    Mr. Guerin. Yes. The Program Management Office is set up in 
a three-tiered program. We have regional executives in each of 
our 11 regions, focused primarily--or entirely, I should say--
on the Recovery Act projects in each of the regions. So those 
people are able to reach into the organization, are able to 
make sure that information is flowing properly and are able to 
make sure people are in the right positions to do the work that 
they need to do to support the Recovery Act.
    They are reviewing staffing. Congresswoman Norton was 
talking about staffing earlier. They are making sure that they 
understand what the staffing requirements are in the regions 
and are making sure that we have the resources we need--I think 
I am feedbacking here--to make sure the Recovery Act goes well.
    Then we have a second tier, which are zone executives. I 
announced in my opening comments that we have just recently 
selected those three people. The zone executives are 
specifically the first line of defense to ensure that the 
projects are being reviewed and tracked properly, and they are 
to make sure that resources across regions are being shared, 
where necessary, so that we have opportunities to use our few 
GSA resources more effectively. If someone in one region is not 
being used to his full extent, we can swap those resources 
across regions, and those zone executives are designed to do 
that.
    They are looking at variants. They are looking at 
resources. They are looking at sharing, and they are 
particularly looking at lessons learned. So where we have an 
opportunity to learn a lesson and share something good to 
accelerate the program, we can do that quickly and effectively 
through the zone executives.
    Then in the central office, under my direct purview, is a 
group of people who are specifically there to provide the 
tracking and reporting function that Congress requires and that 
OMB certainly requires through the program. We have a series of 
stakeholders who are quite interested in everything that we do, 
and we are making sure that we have the reporting functions set 
up to both track projects, to make sure that they are happening 
appropriately, to jump in where we need to to save projects 
that are getting themselves in trouble, to revamp the list 
where necessary if a project starts to go haywire and it will 
not recover. We need to be able to jump on that right away and 
be able to shift the funds to a different source, to a 
different project, to make sure that those funds get spent 
wisely. Then, finally, they are there to provide that reporting 
function that I described.
    Mr. Diaz-Balart. Thank you.
    I have a number of questions, but our time is limited, and 
I know that Ms. Edwards probably has a question, too.
    So, if I may, I will ask Mr. Miller a couple of questions 
again, even though I have a lot more than that.
    Are you going to be able to also review the number of jobs 
created by the projects among the things that you are looking 
at? Because, obviously, this is supposed to be for that 
purpose.
    Mr. Miller. Well, Congressman, most of the GSA projects are 
building projects. That is the majority of the projects. We 
will be focusing on those projects and on, particularly, the 
challenges that I laid out in my testimony. So we will be 
looking at the effectiveness of the project as well, but 
certainly, we would be happy to include that as one of the 
items that we look at.
    Mr. Diaz-Balart. Again, I have a number of other questions, 
but as Madam Chairwoman has reminded me, we have votes, and we 
have one more person who wants to ask questions. Thank you. 
Thank you, Madam Chairwoman.
    Ms. Norton. Again, I apologize because it looks like we 
have one 15-minute vote and two 5's in this set of votes, for 
those who can vote. I will remain for the remaining questions.
    Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
the Ranking Member as well.
    I sat here and I listened to the testimony, and I have to 
tell you that the one thing that jumped out at me, Mr. Miller, 
is that in your testimony--and it is clear from our legislation 
we have quadrupled the amount of money that we are giving to go 
out to renovate and to build public buildings.
    Have we quadrupled the number of investigators and auditors 
to oversee that money going out?
    Mr. Miller. No, we have not. Thank you for asking. We need 
more auditors and investigators to make sure that these 
projects are on track and to get answers back early.
    Ms. Edwards. Then I just want to be clear, though. Are you 
unclear as to your authority to hire those people directly 
rather than contracting them?
    Mr. Miller. OPM has not given us the right to hire retired 
annuitants--retirees--so we have no authority to hire them 
without their waiving their retirements.
    Ms. Edwards. So, just to follow this along, we may have to 
do something that enables that authority so that we can get 
people who are qualified and experienced and who can hit the 
ground running to do the kind of oversight and accountability 
that we need for the taxpayer; is that correct?
    Mr. Miller. That is correct. I am optimistic that OPM will 
come through quickly in the near future. We are working with 
OPM to gain that authority, but we do not have it now.
    Ms. Edwards. Let me just continue on this line.
    My major concern is with the hiring of contractors to do 
what, I believe, are all of the things that we have to do. 
Government workers cannot be building roads and buildings, but 
government workers should surely be able to oversee how 
taxpayer dollars are being spent. I think that is the most 
efficient way for us to oversee these funds. I am greatly 
concerned that, instead, you may have to rely on--and no 
offense intended--a bunch of hired hands to come in and do the 
function of government, and that concerns me tremendously.
    We have the lessons of Katrina. We have the lessons of Iraq 
and of Afghanistan. The list is just long and replete with 
billions of dollars that are spent where contractors are 
overseeing every single part of the process and where 
government has no role other than that of writing the check, 
and the check just gets greater precisely because we have not 
overseen the funds. So this Member, anyway, is going to be 
disturbed tremendously if we cannot figure out a way to bring 
people in who know what they are doing because they have done 
it before.
    Let me just ask this as well. On the question of security, 
how do we ensure that we are going to get people in who have 
the right kinds of security clearances to be able to oversee an 
audit and to be able to investigate in the way that they need 
to if we have to rely on a set of contractors and sort of a 
third-party verification of security compliance when we could 
get that and get it a lot faster if we were able to hire those 
who had already served in government?
    Mr. Miller. I could not agree more. Hiring contractors 
compounds the risk.
    Ms. Edwards. Mr. Guerin, if you have any concerns about 
this, I would appreciate it if you would put those on the 
record now for this Subcommittee, because the last thing that 
we want is to be accused of mismanaging quadruple the amount of 
money that GSA has ever had before for these functions. We want 
people back to work. We want public buildings that meet 
efficiency requirements and that are able to perform for the 
future, and we do not want to waste taxpayer dollars.
    Ms. Edwards. And so do you have the assurances that you are 
going to be able to function in a way that works for the 
taxpayers, given the resource limitations.
    Mr. Guerin. I will simply say that our biggest concern is 
around contracting officers. We believe that there are project 
management professionals in need of work now that will--and 
frankly I have received, you know, upwards of 50 applications 
personally, and I know it is happening across the country of 
people quite qualified looking for work with the Federal 
Government. And we are able to bring them in temporarily on 4-
year contracts, things like that, to support our program, and 
we will be doing that. We are not looking to staff dramatically 
in Federal hires, Federal permanent employees, because this is 
a huge program. But it is a blip in our radar.
    We will go back to, I suspect, a typical billion dollar or 
so a year construction program after the stimulus money has 
been spent out. But contracting officers are certainly a 
concern, and we are actively engaged, you know, particularly, 
you know, chasing annuitants and looking at people that have 
that kind of very specialized experience and trying to bring 
them on board as quickly as possible. It is something that, you 
know, we are actively looking at. Several regions have 
different ways of doing business.
    We are looking at those lessons learned and those great 
ideas out there to how to use contracting officers more 
effectively and staff them with the kind of support they need 
to become much more efficient, I guess is the best word to do 
the contracting that needs to be done for this, and then in 
staffing up. But I think that area is a concern for GSA. 
Otherwise, I think we believe that the people are out there 
that can help us do the program.
    Ms. Edwards. Thank you, Madam Chairwoman. And I just look 
forward to working with you and the Ranking Member so that we 
can make certain that with the quadrupling of the money that 
has gone out to GSA that we make sure that it is spent in the 
most efficient and effective way, and that the Agency and the 
Inspector General, in particular, has the authority to do what 
they need to bring on experienced people who know the job to do 
the job. Thank you very much.
    Ms. Norton. Thank you, Ms. Edwards. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you Madam Chairwoman. I think I have 
a couple, maybe a minute or so left before I have to run. And I 
thank you for that. I think Ms. Edwards is right on target. The 
key is making sure that the resources are there, that you have 
the flexibility.
    Mr. Miller, you highlighted the potential for cost 
escalations and delays in your testimony obviously. And you 
also make the point that that is not a new issue. With the 
workload increase, what can be done differently to minimize 
those risks?
    Mr. Miller. If I may go back to your earlier question about 
job creation, I understand now that, according to Office of 
Management and Budget, they have given the Department of 
Commerce the responsibility of looking at job creation so that 
my office will not be looking at that particular aspect. So I 
am sorry I gave you an incorrect answer before. These are 
historical problems that GSA faces, the cost escalations, the 
time delays, and they are well aware of these issues and I 
assume that Mr. Guerin and others are taking efforts to try and 
correct them. But we will be keeping our eye on those issues 
and looking at those issues very carefully.
    Mr. Diaz-Balart. Thank you, Mr. Miller. And again, Madam 
Chairman, I apologize, but I do have to go vote.
    Ms. Norton. You are excused, sir.
    Let me continue then with questions. Mr. Miller, am I 
correct that if you took on a contractor, the contractor would 
have to get a security clearance and be checked for, as you 
said, the fraud makers will come, to be checked for entire 
background and if so, how long does that take for contractors 
to be able to do this kind of work with the GSA?
    Mr. Miller. Madam Chairman. You are correct. They would 
have to go get a security clearance. The exact level of the 
clearance would depend on the job that they perform. We are 
trying to expedite those clearances. But, again, it could 
take----
    Ms. Norton. Is that also through OPM, by the way?
    Mr. Miller. The security clearances?
    Ms. Norton. Yes.
    Mr. Miller. I believe they are. I know at various times our 
office will help out expediting those clearances. Do you happen 
to know?
    Mr. Guerin. Some of the clearances that we process go 
through the Federal Protective Service of DHS.
    Ms. Norton. Then we have got to go to another agency which 
is backlogged on getting those. If we get some contractors we 
have got to get in line behind others who are hiring 
contractors.
    Mr. Guerin. And I am not sure where the security clearances 
are processed with GSA. I am talking about the HSPD-12 
clearances that support our contractors.
    Ms. Norton. And so there is a security clearance. Who does 
the background check? You do the background check or does OPM 
do that?
    Mr. Miller. Others do the background check.
    Ms. Norton. You see what I am getting at, especially with 
contractors. You are not the only one doing stuff.
    Mr. Miller. Madam Chairman, if I could clarify that as the 
office of Inspector General, we don't plan to hire contractors.
    Ms. Norton. All right. No contractors. This is important. 
Who are you going to hire, sir?
    Mr. Miller. We are hoping to hire retirees, as well as new 
auditors and investigators.
    Ms. Norton. But they will have to go through the same kind 
of--so what percentage of the new--you only have seven. What 
percentage will be, do you expect to be--and these are 
temporary employees, Mr. Miller, you know, they last for a 
couple of years or so.
    Mr. Miller. Yes.
    Ms. Norton. So are you trying to the best of your ability 
hire all retirees or annuitants of one kind or another? If you 
hire some new folks you are going to have to lay them so off, 
probably.
    Mr. Miller. Madam Chairman, we are going to hire as many as 
we can because the retired annuitants, as long as they have the 
experience and they are good workers, we want to hire them. We 
need the help
    Ms. Norton. So there is a preference for annuitants, given 
the time saving, over brand new employees?
    Mr. Miller. We need both. We would like to hire both.
    Ms. Norton. Why do you need both? If you have got seven 
annuitants who said I am ready to work tomorrow, why would you 
need somebody who had to go through the security clearance, 
background check?
    Look, I want more people hired. Guess what? GSA better have 
this work done on time. And therefore, I want to know why you 
wouldn't prefer to hire annuitants who would be presumably, 
short shrifted through this process.
    Mr. Miller. Madam Chairman, we do. And we are trying to 
hire about 10 to 15 retired annuitants to help us do audits in 
particular of construction projects. We also, in the same 
process, would like to hire new employees.
    Ms. Norton. Mr. Miller, are you or are you not giving 
preference to this work? See, I am not nearly as interested, if 
you will forgive me, in your overall agency. I am trying to 
pinpoint and to circumscribe, if you will, the work that has a 
time frame. And time frames are foreign to the GSA. They don't 
do anything. If it is supposed to take you 2 months to do 
something, it will take them a year. So given the time frame 
that they are accustomed to, which is no time frame, if we have 
front end problems in hiring, I am going to get to Mr. Guerin 
in a moment, when I thought your testimony was that, with 
respect to this work, you were looking for annuitants. And then 
you spread it to some other folks you would like. And I want to 
know, are those other folks going to be working on this work as 
well?
    Mr. Miller. Yes, Madam Chairman. We would like to----
    Ms. Norton. Do you have some other authority? Do you have 
authority to hire people for the DOD part of your work, for 
example?
    Mr. Miller. Madam Chair, no we do not.
    Ms. Norton. Do you have any authority to hire anyone except 
for the public building service work?
    Mr. Miller. Madam Chairman, I would have to check. I don't 
believe that we have authority outside of the new FTEs.
    Ms. Norton. See, because then I can't understand. There are 
seven people you told us you could hire. Then you went to 15. 
Where are these other people coming from? Who funds those?
    Mr. Miller. Madam Chairman, we would--the 10 to 15 would be 
retirees, and we are seeking authority to hire those. I guess 
some of the slots, FTEs would be taken by the retired retirees, 
so we would have to iron out the other.
    Ms. Norton. I just want to know, my question is very 
simple. Will the auditors, with this grant of money, I don't 
have the amount before me, will you be able to hire authorities 
for the GSA grant of money from annuitants who could hit the 
ground running? I am not--I am pleased that there may be other 
employees. But there is a specific amount of money, and I am 
going to hold you accountable for this amount.
    This says, the conference agreement provides $7 million for 
the GSA administrative Office of Inspector General to be 
available through September 30th, 2013, for oversight and 
auditor programs. I want to know about this $7 million. Is it 
possible that this $7 million can be used exclusively to hire 
annuitants who can hit the ground running?
    Mr. Miller. Madam Chairman, we will try to do that. Part of 
the confusion is that with retired annuitants, many of those 
will work part time, so that two to three retired annuitants 
will equal one FTE.
    Ms. Norton. Now if that is efficient to do, and it might be 
because people who work part time often end up working more 
than their part time hours. Do you believe that you could do it 
with part-time employees?
    Mr. Miller. We do believe that. And we are seeking the 
authority to hire those retired retirees.
    Ms. Norton. Thank you very much. Now, I want to ask Mr. 
Guerin, how many contractors and how many retirees do you plan 
to hire?
    Mr. Guerin. Congresswoman, we have gone and evaluated that 
with all of our regional offices to determine the total number 
of people required, and we think it is somewhere upwards of 150 
people. We haven't settled on exactly how many will be 
contractors, how many will be temporary employees and how many 
will be GSA.
    Ms. Norton. What is holding you up, Mr. Guerin?
    Mr. Guerin. Simple decision making. We are in the process.
    Ms. Norton. Mr. Guerin, February 17 is when the bill was 
passed. For at least 6 months ahead of that, you have been 
preparing for this. And remember what I said to Mr. Miller 
about time lines. I realize that's a foreign language, but we 
have got to learn to speak it now. So I don't understand what 
is the hold up in making the simple decision of how many 
retirees. For example, the easy decision to make is let's get 
as many retirees as we can possible find, and anything we can't 
find has to go to contractors because of the sheer savings in 
process time.
    But Mr. Guerin, let me tell you my disappointment. We had 
to bring out, in this hearing, that you didn't even have the 
authority, and let me just say that over and over again, I have 
found that all that the Agency had to do would be to come to 
staff and alert staff that it didn't have X, Y and Z and they 
could have had it.
    The new head of OPM, who I don't even think I will have to 
go to, happens to be a person I know very, very well. He lives 
in this region, has worked for the Congress and the government 
his entire professional life, is already off and running to 
create a new, more efficient OPM. And I don't know, if we 
hadn't had this hearing, and this is a tracking hearing, we are 
going to have them very often, how we would have even found out 
that you did not have the authority, which this stupid Chair 
assumed you had. It is very troublesome to me.
    And Mr. Miller, I want you to take notice. I didn't even 
know it. It is not raised certainly in Mr. Guerin's testimony. 
It certainly is raised, the hiring issues are certainly raised 
in your testimony. So it is--it gives me no sense of confidence 
in the Agency that you haven't been here before the bill was 
passed, knowing how short staffed GSA has been for years, to 
say we don't have the staff. You discussed that with staff and 
talked about moving people around. But no one has ever said to 
me, we need some OPM--we need to move OPM to make us an agency. 
It is extremely disconcerting to hear that only in a hearing. 
So I have got to ask you, am I going to be left with people 
combing the fields for some contractors because we haven't even 
decided that the fastest way to get people on board is to look 
for some people who left the Agency and may be lured back? I 
mean, I don't understand your proceeding. And you need to help 
me out here because you just lowered my confidence several 
degrees in your ability to even confront the challenge before 
you.
    Can I ask you this?
    You heard Mr. Miller say that he believes he will be able 
to hire annuitants to do his work, maybe he won't, but he sees 
the efficiency to the government and the time frames. Could I 
ask you whether you will undertake, beginning when you leave 
this hearing, to recruit as many annuitants as possible to do 
this work. And if that is impossible, or if you see some issue 
there, I would be pleased to hear them because I am only asking 
this from ignorance, you see. I don't know. Maybe there is a 
reason why, 1, it shouldn't be attempted and 2, if it were 
attempted it would not be a good thing. So would you please 
inform me of whether you are willing to do that in light of the 
fact that you have had to pull people from all over the Agency 
just to accomplish what you have done thus far.
    Mr. Guerin. Yes. As I said earlier, we have already 
identified upwards of a couple of dozen people that we want to 
bring back to GSA. And again, I brought up the challenge of the 
annuity and that I think is what got your concern so 
immediately.
    Ms. Norton. Would you also, before you go further, would 
you go down a list of other needs the Agency has, either in 
legislation, or in moves the administration should take? It 
would be easier for us if often, to get that to happen sooner 
than it would for you to go up the ladder because we are a co-
equal branch of government. And you see, the reason that you 
see me pressing this is there is not going to be anyone to 
blame except us. It is us doing Federal business. So if this 
doesn't get in on time we are not going to be able to say, you 
know, Maryland did it or look what--we told Virginia. We are 
going to have to take responsibility ourselves.
    So we have got to stay on top of this since we have got 
nobody to point to but ourselves. But if we don't even know 
things, I am left to do what I am doing now. So you already 
have identified a couple of hundred, although you see that is 
contrary to your initial answer, in which case I would have 
gone on. You said you were trying to decide how many 
contractors. And I recognize you may run out of annuitants, but 
if there has not even been established a preference for people 
who can hit the ground running, then I am not sure where the 
hiring authority is at this point.
    Mr. Guerin. Can I address that? We have two rolling 
registers out now, one focused on primarily contracting 
officers, and one primarily focused on project managers. We 
know we have needs in both of those areas, and so we have 
identified those and we have put them out and advertised them 
in three ways. One is permanent hire, one is a temporary hire, 
and one is contractors.
    Ms. Norton. This is my problem. Guess who is not looking 
for a job? Somebody who is sitting at home on their pension. We 
have got people who retired early. Some of them wish they 
hadn't now. We have got people who retired. Even the people who 
might want to come back to work are not among those who are 
looking at your, let's see who is hiring now. So I guess I 
should ask you who is out recruiting annuitants? Who is looking 
for annuitants?
    Mr. Guerin. The regions are out recruiting right now. The 
regional offices are out recruiting. They are the ones who knew 
the people.
    Ms. Norton. How are you contacting annuitants?
    Mr. Guerin. Directly.
    Ms. Norton. Well, what is all this advertising. I will tell 
you one thing. If I saw an ad in the paper and I didn't have a 
job, I would inundate you all, so a lot of folks are going to 
come in. Just going through those folks to decide who to come, 
that is a whole big job. Who needs it? We are not going to be 
sitting up here giving excuses for GSA.
    Mr. Guerin. No, we don't believe there are enough 
annuitants to staff all of the positions that we have out 
there. But we are identifying the people.
    Ms. Norton. You will never know if you don't have somebody 
on the case calling up annuitants. Look, a lot of these people 
are settled in doing other things. Mr. Miller testified that 
you can only get some of them part time. Somebody ought to say, 
hey, look, look at your 401(k). What do we call ours? Whatever 
we call ours, wouldn't you like to come back for at least part 
time work? You have got to be aggressively recruiting these 
people, unless--and let me ask Mr. Miller. How long does it 
take a contractor, a new person, to get through the system as 
opposed to an annuitant to get through the system?
    Mr. Miller. Madam Chairman, I don't have the precise time 
line, but it would be a lot longer.
    Ms. Norton. Yeah. I can't do anything without people. We 
are stuck on stupid without people. And then you know somebody 
comes back to us and says Congresswoman, I am sorry we are 
having trouble contracting people. I asked the staff how long 
has it been, 90 days since the darn bill was passed, and they 
were preparing for this long before the bill passed. This is 
extremely disappointing. How many people have been brought on 
new at the, to work exclusively on this work, Mr. Guerin?
    Mr. Guerin. I don't have that number, Congresswoman.
    Ms. Norton. I tell you what. This is very, very anxiety 
raising. By the close of business tomorrow we want to see a 
personnel chart for the Recovery Act funds alone, including 
those who have been brought on board, and when. When we say 
tracking hearings that is what I mean. You know what? Given the 
fact that some of this only comes out on what I call cross 
examination, I would say to the staff I think we have got to be 
prepared to hold a hearing, even if a brief hearing, every 2 
weeks until we are assured that these folks have, I mean, we 
may have to do them on a Friday or we may have to do them in 
one of the other rooms until we are assured that they have 
staff on board and are going, we are going to get so backlogged 
we won't be able to catch up and it will be on us.
    By the close of business tomorrow, I want that staff chart 
here, please. You need to bring on some people just to help you 
get on people. I understand how understaffed you are. I should 
think that would be an incentive to go forward.
    Let me ask you about swing space. Is there sufficient swing 
space already contracted for the full blown building makeovers 
that are going to take place throughout the United States, Mr. 
Guerin?
    Mr. Guerin. We have identified the swing space needs for 
each of those large projects. We have funds available to the 
program in order to accommodate those swing space.
    Ms. Norton. Are they available?
    Mr. Guerin. We are investigating that right now. I believe 
they are available. Several of the leases are in the District, 
and we believe space is available in the District to 
accommodate those.
    Ms. Norton. Well, I would like by the close of business 
tomorrow to know what the swing space is in the District and 
whether swing space will be needed for, in another areas. You 
know, where are the time lines? Do you have the time lines for 
the projects?
    Mr. Guerin. Yes.
    Ms. Norton. Could we have those time lines as well?
    Mr. Guerin. Yes.
    Ms. Norton. By the close of business tomorrow.
    Could I ask about something that if you had come to us I 
would have made a priority because it has certainly gotten on 
our nerves, but only episodically, so-called unbudgeted 
customer needs. We have seen GSA's work held up. I don't know 
why this wasn't an incentive because the Agency had needs that 
were not budgeted with GSA. As you know, I am in the process of 
also doing hearings to reauthorize the GSA. That is a fancy 
word to say reform its statute in the hope that it will reform 
the Agency itself. But one of the things I would like to do is 
to make sure that, for example, things like moving funds, GSA 
has the authority, so the Agency which then has to go and find 
it in its budget, which, of course, is a disincentive, doesn't 
hold up the works where we could end up paying for space. How 
many times have I seen that occur? Just because GSA doesn't 
have the funds to move the Agency into the space that is then 
finished.
    Now, most of your, I mean, the buildings you do are all 
level 4s. Any reason why you--are there any similar unbudgeted 
customer needs that are the kinds that are mentioned on page 8 
of Mr.--of the kind I just said, moving needs for example, of 
the kind that are also mentioned in passing on page 8 of Mr. 
Miller's testimony?
    Agency funds. And I have the Social Security administrator 
here, and I am going to see if there are any such funds related 
to work that the Social Security Administration has asked you 
to do. Go ahead.
    Mr. Guerin. Before I answer that question, Congresswoman, I 
just want to the clarify something. GSA has requested and 
received a waiver for our contracting officers from OMB 
regarding the annuitant, the retirement payments, so we have 
the authority to hire them without penalty. And we are 
seeking----
    Ms. Norton. Say that again. You have received the 
authority.
    Mr. Guerin. Yes. We asked for a waiver from OPM and they 
granted a waiver for 1102s, which are the contracting officers, 
so we have the ability to bring back our annuitants.
    Ms. Norton. Okay. So contracting officers, including 
annuitants.
    Mr. Guerin. No, for annuitant contracting officers or 
previous contracting officers, we are able to bring them in 
without penalizing them. And we are seeking authority for other 
positions as well.
    Ms. Norton. Thank you very much. So in other words, you 
already can and are hiring annuitants.
    Mr. Guerin. Without penalty.
    Ms. Norton. Without penalty.
    Mr. Guerin. Right. And to your question, Congresswoman, the 
Agency moves, as GSA developed the list, we worked with OMB on 
the costs associated with moving the tenants in and out of the 
buildings. Where we had the opportunity and where OMB was able 
to add money to the 2010 program for those agencies, they 
accommodated.
    Ms. Norton. That is 2010. Is that connected to the stimulus 
funds?
    Mr. Guerin. It is connected to getting funding for the 
agencies in 2010 as appropriate.
    Ms. Norton. You see, this is the kind of inefficiency we 
have got to do without. You all should not be put to that.
    Are any of these funds associated, Mr. Gallagher, with the 
work you have to do. We call them unbudgeted customer needs 
because it falls to you to do what you have already delegated. 
What is it, $500 million to GSA? Are there any other funds you 
have to delegate or get from your budget in order for them to 
complete the work that they're doing for you?
    Mr. Gallagher. Are you speaking just about the computer 
center?
    Ms. Norton. Yes, sir.
    Mr. Gallagher. I am not prepared to answer that question. I 
could have somebody from our staff get back to your staff and 
answer that question.
    Ms. Norton. Yes, I wish you would because we would like to 
get ahead of it in case----
    Mr. Gallagher. We will have someone come back and brief you 
on that.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. When did you decide to have the GSA perform 
this work for the Social Security Administration?
    Mr. Gallagher. Well, under the law, only the General 
Services Administration can perform this type of real estate 
function.
    Ms. Norton. Well, I am wondering why this wasn't included 
in their package. You had to delegate it, you had to give the 
money over. You had the money. You had to give it over to them.
    Mr. Gallagher. Yes, we will have to do a reimbursable work 
authorization back to GSA for this function.
    Ms. Norton. Actually, maybe this was just to keep the funds 
from going beyond certain amounts for each agency. Maybe that 
is the reason this occurred. But you are right. You don't have 
the authority. The reason I am asking questions like this is 
because we are reauthorizing the bill. We don't want to just 
step into something. That is not what we want do to.
    What are the plans, Mr. Gallagher, for this computer 
center?
    Mr. Gallagher. Well, the first step is to get started on 
this process, we have a construction management firm that has 
already been contracted by GSA, and so really GSA has the lead 
on this and we will work with them.
    Ms. Norton. Now, where is it going to be located?
    Mr. Gallagher. Where is the company located?
    Ms. Norton. Yeah.
    Mr. Gallagher. Its name is Jacobs Facility. I don't know 
where it is.
    Ms. Norton. You mean, it is a facility that----
    Mr. Gallagher. It is a contractor.
    Ms. Norton. No. No. Where is the new facility?
    Mr. Gallagher. Oh, I am sorry. No decision has been made 
yet as to where the new facility will be. We are still 
undergoing really the site selection process on that.
    Ms. Norton. You have to purchase land?
    Mr. Gallagher. Yes. This will require a purchase of land.
    Ms. Norton. Mr. Guerin, what about the purchase of land 
here? We don't even know where you are going to be yet.
    Mr. Guerin. Well, we are working with the administration to 
identify appropriate locations for the project.
    Ms. Norton. We understand it is going to be within, the 
staff believes it will be within 50 miles of Baltimore.
    Mr. Gallagher. Somewhere about that. We do know that there 
are some technology reasons to be close to our current 
facility. We also need to make sure, there are some technology 
issues to have that amount of data transferred back and forth. 
There are also some reasons we want to make sure that we have 
access of our intellectual capital, our employees, to be able 
to get back and forth to that facility.
    Ms. Norton. Where is it located now, Mr. Gallagher?
    Mr. Gallagher. It is in our--Baltimore County. If you 
wouldn't mind, I would rather not give you the specific 
location due to its critical nature.
    Ms. Norton. Is it a secure facility?
    Mr. Gallagher. It is a secure facility, yes, ma'am.
    Ms. Norton. All right. But it is in Baltimore County.
    Mr. Gallagher. Yes, ma'am.
    Ms. Norton. What is the delineated area, Mr. Guerin, going 
to be? You said 50 miles, about 50 miles, more or less.
    Mr. Gallagher. I can tell you. We are still engaged in the 
process of actually developing the site criteria. One of the 
ones we have which is the technology driver for some relatively 
close proximity.
    Ms. Norton. Mr. Guerin, in light of, I can only call it a 
shameful episode recently experienced, whereby there were gross 
violations in the delineated area of a facility, unheard of 
violations which are already on the record, I am going to ask 
you within 24 hours of the delineated area choice, to submit 
that information to this Committee and Subcommittee. And I am 
going to remind you that when there is a delineated area, the 
rule is that any change in the delineated area must be reported 
to this Committee as did not occur with the Social Security, 
HHS facility which caused its cancellation, as I recall. So 
that is something we will need to know right away, especially 
since it looks like you will have to purchase land.
    How big a facility is this? Any idea, Mr. Gallagher, how 
big a facility?
    Mr. Gallagher. Again, we are in the beginning part of the 
discussion. It is somewhere around 300,000 square feet.
    Ms. Norton. Mr. Gallagher, let me say to you again. You are 
working with an agency that is overburdened in the first place. 
And we believe that there are other agencies that will also be 
required to ask GSA to do the work. So the earlier you get in, 
this done, because you are a start up, you are essentially 
starting at the beginning with land purchase, the better off 
you will be. I am going to have to ask you to get all your 
basic decisions made within the next 30 days, at the outset. So 
they won't be able to put it on it. They will do it in a 
second. They will say oh, you know, what could we do? We were 
waiting for the Social Security Administration.
    Mr. Gallagher. We are actually working very closely with 
region three of GSA and I will tell you we are very pleased 
with their enthusiasm and how they have reached out.
    Ms. Norton. Oh, they are always enthusiastic. But the site 
hadn't been selected?
    Mr. Gallagher. That is correct.
    Ms. Norton. Part of this is--remember, it is 90 days. They 
are short staffed, and they really are being asked to do 
everything at one time. So, you know, we are here to do the 
impossible. But I want to make sure you are not left, since you 
have to start with land purchase, which makes yours even more 
difficult than what we have been describing here.
    Mr. Gallagher. We do expect because there is a considerable 
amount of work to do, our current plan is we expect to be able 
to acquire the site in the second quarter of fiscal year 2010.
    Ms. Norton. Well, that, which means that you would have to 
decide upon the site, acquire it means----
    Mr. Gallagher. That is correct. Actually set up the 
requirements for it, go through the competitive process for 
that. This is actually a GSA function.
    Ms. Norton. Yeah. It does take time. And in light of that I 
am going to have to ask Mr. Guerin, since you have testified 
that you are looking for streamlined methods, I think you have 
used of the word innovative approaches, to do projects 
associated with the stimulus. Here is a classic one where you 
are being asked to do really a very difficult thing which is 
acquire land and then go forward from there. Could you give us 
an idea what kinds of innovative approaches to deliver projects 
you are using, what kinds of, give me an example of what you 
mean by innovative or streamlining the present process.
    Mr. Guerin. Well, as an example, Congresswoman, you are 
right. The new design starts with a new site and those kinds of 
projects are going to be our most challenging because of the 
time frame involved with all those activities. As an example, 
in Bakersfield, we are looking to have a design competition to 
completely streamline the design selection process and get us 
very quickly to a----
    Ms. Norton. How?
    Mr. Guerin. Design competition eliminates the need to 
actually go through a formal selection process of the 
architect. We issue a solicitation and the designers actually 
provide designs as part of their initial submission to us, so 
it cuts out quite a bit of the design time associated with 
getting to a concept, conceptual project. By doing that, we 
shorten the time dramatically in the design phase and by using 
design build bridging we can take that quickly to a 
construction project by using the concepts that are provided, 
selecting the architect that gets the winning contract, ask 
them to continue design and starting the design-build process 
at the same time. So it is an example of substantially 
compressing the time frame associated with that.
    Ms. Norton. That is. It certainly is. Indeed, as I 
understand it, Mr. Abdur-Rahman, we are using something of that 
kind of process for the DHS headquarters?
    Mr. Abdur-Rahman. For the Coast Guard headquarters we are 
using a design build bridging process.
    Ms. Norton. Coast Guard. Thank you for that correction. Go 
ahead.
    Mr. Abdur-Rahman. Yes, we are. Of course with the St. 
Elizabeth project we own the site so we have the advantage of 
having the site already. But for the Coast Guard design, which 
is the first phase of that development, we are using a design 
build bridging process to accelerate the project.
    Ms. Norton. Are you on time? We had some dates that you 
delivered to us. Are you on time thus far?
    Mr. Abdur-Rahman. Yes, we are on schedule to ultimately 
have a ward of the Coast Guard headquarters building in 
September of this year, as well as the construction manager for 
that project.
    Ms. Norton. So that means we won't be--when will we be 
obligating funds?
    Mr. Abdur-Rahman. Yes, we will be obligating funds 
beginning this summer. The first part of that development. I 
was mentioning kind of a larger package which is the Coast 
Guard, the actual building. But we are going to be starting 
with abatement and demolition of the buildings that are on the 
site that the Coast Guard will occupy. That will start this 
summer, in June.
    Ms. Norton. That is important. So you are testifying that 
in June the first abatement work and what else, abatement and--
--
    Mr. Abdur-Rahman. Demolition. Demolition of the site that 
will, the site for the Coast Guard headquarters is currently 
occupied by buildings that are identified for demolition in the 
final approved master plan.
    Ms. Norton. Except for acquisition of sites, you, of 
course, have perhaps the most challenging work to do since 450, 
we have got $450 million out of the stimulus package. This is 
classic old fashioned WPA funding. Those cornerstones down on 
Pennsylvania Avenue show you that this is what, this is how you 
do it. Every last one of those buildings on Constitution, 
Pennsylvania Avenue, were built during the Great Depression. 
And I think this may be the only one that we are doing, except 
for the smaller port entry buildings, land port entry buildings 
in that fashion.
    So that is the reason we were able to get this out in 
stimulus funds. And we got them out largely through the Senate, 
where there was an understanding of the history of the use of 
infrastructure building to actually build something. And we got 
them out, and the reason we are so focused on you, Mr. Abdur-
Rahman, is that Congress and particularly the Senate, who was 
really our helpmate here, showed their belief in building as a 
way to stimulate jobs.
    Now, we have already figured 38,000 jobs. That 38,000 
encompasses how many buildings? Where does that figure come 
from? Is that still a good figure?
    Mr. Abdur-Rahman. The figure that you are quoting was from 
the final environmental impact statement and record decision, 
and that is a regional number. So the figure I am recalling was 
about 32,000, I think, jobs, direct employment opportunities.
    Ms. Norton. Over what period of time?
    Mr. Abdur-Rahman. Over the development of the project which 
begins this year and has final occupancy in 2016.
    Ms. Norton. That is a long-term project. How many 
buildings?
    Mr. Abdur-Rahman. We are retaining in terms of adaptive 
reads, we are retaining 52 of the 62 buildings that contribute 
to the NHL status, and there will be several--
    Ms. Norton. NHL?
    Mr. Abdur-Rahman. National historic landmark status.
    Ms. Norton. That is reuse of buildings?
    Mr. Abdur-Rahman. Reuse of buildings.
    Ms. Norton. How many buildings are being reused? That makes 
a lot of work. How many buildings are being reused?
    Mr. Abdur-Rahman. 52.
    Ms. Norton. That is excellent.
    Mr. Abdur-Rahman. And then there will be a new building. 
The Coast Guard headquarters will be a new facility. There will 
be a national operations center that will be largely an 
underground facility where DHS will be able to coordinate an 
organized response to different threats and challenges. And 
then there will be new facilities on the site for other parts 
of the DHS program, for Transportation Security Agency, Customs 
and Border Protection and Immigration and Customs support and 
FEMA.
    Ms. Norton. I hope you understand, Mr. Guerin, part of my 
last question, that said I do not believe that you are going to 
be able to bring on even annuitants fast enough without selling 
them on coming back and therefore we need a proactive program. 
Not here I am advertising for some contractors. You will get 
thousands. This is a very tough time. We want very special 
kinds of people, obviously contractors, but to the extent that 
we can get people who shorten this process, the Committee will 
be particularly looking to that.
    Mr. Miller, you mentioned the old bugaboos of fraud, waste 
and abuse, and you have earlier testified that it is very 
difficult to spend government money rapidly, and you mentioned 
some recent examples, without incurring some fraud.
    Now, we are sophisticated about the notion that this guy, 
there is certain some Ph.D candidate will tell us how much 
fraud, what is the minimal fraud you can expect in any 
government contract. Maybe that standard would help us.
    But I am worried about GSA more so than other agencies, 
because of what you have just seen what it looks like almost a 
start up of an agency for stimulus funds. Got to hire yourself 
some people. Don't even know yet whether the experienced 
people, or people who have to go through a long process, got to 
do four times the amount of work, got to make sure it is 
quality work because in construction you can tell in a mini 
second if it is not quality work. You have got to do a 
competitive process.
    My question to you is, how should we look at the 
possibilities here for fraud, waste and abuse, with a short-
staffed agency who essentially has to staff up even to do the 
stimulus job while keeping its other functions going? How are 
we going to prevent fraud, waste and abuse, given the 
considerable handicaps and challenges this agency experiences?
    Mr. Miller. Madam Chairman, I share your concern. We are 
very concerned about this as well. We are looking, we hope to 
look at projects very early so that we can spot issues early 
and spot warning signs, red flags, and hopefully, catch the 
fraud, waste and abuse.
    Ms. Norton. How about warning signs? Red flags scare me. By 
that time it is pretty bad.
    Mr. Miller. Yes.
    Ms. Norton. How about warning signs? Give us examples of 
the kind of warning signs that would be useful to you and to 
GSA to know of.
    Mr. Miller. Well, some warning signs are, I guess, the 
keeping of the records. If contracts are being split, if there 
are equitable adjustments, if there is no record of the 
contracting officers, technical representative on a contract or 
a project----
    Ms. Norton. Is there a project director, for example, for 
Mr. Gallagher's project? That is a separate project.
    Mr. Gallagher, do you know if there is yet a separate 
project--you have seen Mr. Abdur-Rahman is the project manager 
for a project that at this point has roughly the same amount of 
money. Is that right? $750 million. You have $500 million. Is 
there a project manager, Mr. Guerin?
    Mr. Guerin. Yes, there is. Ed Myers in our region three is 
the project manager for the SSA project.
    Ms. Norton. Very important for a project of this size, both 
to satisfy the client and the Committee.
    I am sorry. Go ahead, Mr. Miller.
    Mr. Miller. If information being reported in multiple 
locations do not match, for example, if a contract awarded in 
FPDS is not reported when the obligation is also reported to 
OMB.
    Ms. Norton. Mr. Miller, is there any percentage? I don't 
know even if this is feasible. There are some kinds of work 
that is being done all over the country, same kinds of work, 
for example, HVAC work, which is going to be very important 
because of the emphasis on heating, sorry, energy conservation. 
Is there anything to be said--God knows I am offering no 
opinion here. I have no idea--about a contractor who be 
prepared as a matter of scale, both give us a good price and to 
do the work quickly, even though located in a number of 
different locations? Or is it best to go region by region with 
all of the inefficiencies that can come from that process?
    Mr. Miller. Madam Chair, that appears to be a very 
difficult issue that we would rely on the expertise of the 
Agency.
    Ms. Norton. Well, what does Mr. Guerin say?
    Mr. Guerin, I am offering no view. I have no expertise 
here. But you are put in a very strange position, even for a 
well-staffed agency. We have decided that there are so many 
Federal facilities that it would be impossible to locate this 
money in just a few of them. So we have tried to work with you 
to see if there was some objective process for choosing needed 
work in all 50 states, the territories and the District of 
Columbia, because all, every single jurisdiction, where there 
are Federal buildings, has incurred the same lack of funding 
for GSA projects.
    So I am trying to find out whether there are economies of 
scale for work of the same type, or whether, particularly in 
light of Mr. Miller's concern about fraud, waste and abuse, who 
knows, that it is better to go piece by piece, jurisdiction by 
jurisdiction and I recognize that you have not had this kind of 
work going on in all 50 States before. But it is conceivable 
that there could be some contractors for whom, whose record of 
doing similar work with the GSA has been of such a quality and 
such a speed that there could be advantages. Do we have any 
sense of that at this point?
    Mr. Guerin. We do, Congresswoman. We have a series of IDIQ, 
indefinite quantity contracts that we intend to use for some 
of----
    Ms. Norton. Give me an example of what that means, please.
    Mr. Guerin. It means we have hired a series of contractors 
in particular geographic locations that we understand the 
quality of the work that they have been producing for us.
    Ms. Norton. To do what kind of work?
    Mr. Guerin. To do construction work, to do some design work 
as well. We have a number of different kinds of contracts that 
we use to give us the ability to task contracts so we don't 
have to go out and recompete, reselect, re-educate someone who 
has not had experience with GSA in the past. And so those 
people are available to us. And we are increasing the maximum 
order limitations and the amount of money available to those 
contracts so we can effectively use them as we move forward. We 
want to make sure that we take into account our small business 
goal, so we will push a lot of contracts out to individual 
contractors and pursue those because we want to make sure that 
we achieve our small business and set aside program goals as 
well.
    We have a series of programmatic contracts that we are 
putting out for lighting, for recommissioning that will be 
national contracts. We will rely on specific experts to make 
sure that we have a consistent coordinated approach to how we 
evaluate our projects and how we define the scope of work for 
these programmatic projects moving forward.
    So we have those kinds of things going on where we are 
absolutely relying on specific expertise to make sure that we 
get exactly what we want and make sure that we achieve the 
energy goals that we are trying to achieve.
    Ms. Norton. Is monitoring of this work centralized here or 
are we relying on the regions?
    Mr. Guerin. Both. We have some contracts that are being 
managed centrally. And most, most of the contracts being 
managed regionally. We have experts--obviously, GSA puts its 
program out through our regional offices, and the vast majority 
of the work will happen in the regional offices.
    Ms. Norton. Mr. Abdur-Rahman, would you put on the record 
about small business goals with respect to the DHS project 
which Mr. Guerin alluded to generally. Have you goals, and how 
have they been met or not on DHS work done this far at St. 
Elizabeth's.
    Mr. Abdur-Rahman. The goals that were established for the 
DHS program are 40 percent for small businesses. We are, as I 
mentioned we are in the early stages of those procurements, so 
those goals will be included in the request for proposal that 
are being issued and then we will follow up and report on those 
as the contracts are awarded and the GCs submit their 
subcontractors.
    Ms. Norton. Now we understand that in the clearing the 
land, there have been some goals. Do you have any figures on 
those goals?
    Mr. Abdur-Rahman. Yes. I think what you are referring to is 
that we have began, we obtained custody and control of this 
property from the Department of Health and Human Services. We 
immediately began to stabilize the facilities that were there 
that were in disrepair and do some repairs. And I don't have 
the exact figures, but it occurs to me that we spent about $13 
million on investing in the site so far and stabilization. All 
that work has gone to small business so far, to date. And I 
would like to point out that the solicitation that we are going 
to be awarding for the abatement and demolition is going to be 
a small business project also. So that will help our record and 
increase our objective to make opportunities available to the 
maximum number extent of small businesses on this project.
    Ms. Norton. Given the speed with which you have got to 
proceed, Mr. Guerin, how are you going to meet the small 
business goals? You are piling that in we are piling that in on 
top of everything else we have piled on your back.
    Mr. Guerin. We are used to it, Congresswoman. We pursue 
small business contracts regularly. We have a good track record 
of achieving our goals and we are going to continue to 
advertise specifically set aside for small business owners to 
do that. The vast majority of the projects, not the dollar 
amounts, but the projects are small projects that can be 
successfully awarded to small businesses and we intend to do 
that.
    Ms. Norton. Well, Mr. Abdur-Rahman and GSA have been 
holding forums here for small businesses and I was at the last 
one, and saw enthusiastic people out learning about the 8A and 
other processes. Are those forums going to be held around the 
country in any locations in any other locations, and are any 
others expected here?
    Mr. Guerin. Yes, Congresswoman, both across the country and 
in D.C., you will see additional opportunities for small 
businesses to understand and get to know GSA and get to know 
what our processes are and participate in our contracts. That 
is certainly a way that we go out and strive to get as much 
small business participation as we can through those types of 
forums that you are referring to.
    Mr. Miller. Madam Chair, would you mind if I took a very 
brief break?
    Ms. Norton. Yes, sir. Go ahead. How many of these, Mr. 
Abdur-Rahman, how many of the, you have been having these 
forums. Have any of these small businessmen been added to the 
GSA schedule as a result of your forums?
    Mr. Abdur-Rahman. I am not aware and I would have to get 
back to you about whether they have been added to the GSA.
    Ms. Norton. What does it take to get on the GSA schedule?
    Mr. Abdur-Rahman. They would need to apply to a 
solicitation that GSA would issue specifically for GSA 
schedule.
    Ms. Norton. But how do you get on the schedule?
    Mr. Abdur-Rahman. They would, when we have opportunities 
for schedules we announce those in the Federal business 
opportunities and when those solicitations are issued then 
those companies would compete for those. The training that we 
are having right now is for people to be certified by the Small 
Business Administration as small or disadvantaged contractors.
    And if I have a moment I would like to clarify that. Our 
goal for construction is 40 percent small business and for the 
construction manager, 38 percent. And the solicitation that we 
have out for the abatement and demolition is specifically for 
small disadvantaged or 8A contractors.
    Ms. Norton. That is for DBEs. How are we getting on the GSA 
schedule?
    Mr. Abdur-Rahman. Yeah.
    Ms. Norton. You are just talking about SBA. That is 
important. But then there is the all important GSA schedule.
    Mr. Guerin. I think we should get back to you with a 
specific response on that, Congresswoman.
    Ms. Norton. Are people being trained? What does it take to 
get on the GSA schedule? What do you have to have in order to 
qualify to be on the schedule?
    Mr. Guerin. I think we need to get back with a specific 
answer on exactly how that happens because I don't think Dawud 
or I are in a position to answer that question exactly.
    Ms. Norton. Would you, within 14 days get back to us. You 
know it is one thing to be on it and to therefore, compete 
among those who are already on it. But I would like details of 
how you get on it. And I would like to know if you are, and may 
I thank GSA, who will be appearing and offering advice at my 
small business fair held annually, and may I thank you for 
always being there at that fair. And that fair is the 13 of 
May, next Tuesday. And I know you will be offering a workshop 
on how to get on the GSA schedule.
    So I would like a list of all businesses in the District of 
Columbia that are on the DHS schedule, for whatever purpose. 
Then I would like a list of all businesses in the region, 
National Capitol Region, that are on the DHS schedule. That is 
public information I am sure.
    Mr. Guerin. I am sure it is.
    Ms. Norton. I am almost through. The purpose of--we would 
not be engaged in this hearing, and you would not have this 
money except for one purpose, to create jobs. So as much as we 
have talked about fraud, waste and abuse, quality of work, how 
soon it gets out, if we were to list what the purpose of this 
money is, it would be to create jobs to help us bring out, get 
out of this structural recession. Any look at what has happened 
to our country makes it clear that there will be no coming up 
one sector at a time. All 50 States are down. There is a 
terrible cobweb. You can't break into it and break somebody out 
of it. Everything has to happen at one time. That is why we are 
doing TARP and why we are doing mortgages and why the President 
does have to do it all at one time or go home; and he ain't 
going home.
    That being the case, the job creation element of this 
becomes exquisitely important, if I may say so. The most 
important element of this. Can you tell me how many people have 
been hired as of this time?
    Mr. Guerin. We have awarded $100 million worth of 
contracts. Those are several large projects and a series of 
small studies and design projects. I don't have the exact 
figure of how many people have been hired.
    Ms. Norton. Are any of those projects underway?
    Mr. Guerin. They are just getting started, Congresswoman.
    Ms. Norton. And how do we track jobs? Because again, that 
is how we are most accountable, then everything else comes 
after that. How do we track--do we know when somebody is on the 
ground working in whatever capacity?
    Mr. Guerin. We have a specific contract clause that is 
going to be inserted into every contract that we issue through 
the recovery to ask the contractors to track jobs in a very 
specific way. They report those jobs directly to a Web site 
that I don't remember, I believe it is a Congress Web site 
where all the jobs are tracked and reported, and that will 
happen across the country. They will feed into a specific Web 
site.
    Ms. Norton. I know we are early in the obligation, but 
that, but you are separately tracking jobs. For example, if the 
contractor is slow getting people on the ground, what happens 
to that contractor? He has been awarded a contract, but they're 
sitting on a contract or somehow or the other isn't hiring 
people even though there a glut of people looking for jobs. 
What does he do? What do you do?
    Mr. Guerin. We don't anticipate that happening, 
Congresswoman.
    Ms. Norton. Well, my goodness. I do. I anticipate what you 
should anticipate, and I anticipate what you shouldn't 
anticipate. And I absolutely anticipate that once some of these 
guys get the job, even though there is every incentive to 
start, that you will be looking at some people who start up and 
some people who put in a good bid, but don't start up as 
quickly. How will you make sure that all these contractors are 
working quickly?
    Mr. Guerin. We are going to continue to use the processes 
we used to pick the best contractors. We have source selection 
processes that we use.
    Ms. Norton. Well, they have already got the contract. Yet 
you see that contractor A in X jurisdiction has started up and 
is working quickly. Contractor B is working less quickly, even 
though he has access to the same work force. What does GSA do? 
Is there a marker that shows how fast someone ought to be able, 
given the number of----
    Mr. Guerin. We have very specific information about each of 
our contracts. A milestone schedule for each of the, not only 
the design, but the procurement and the construction project, 
and my office is going to specifically track those things to 
ensure that the projects are happening on the schedules that 
they created for us and that we agreed to contractually. And if 
they do not perform, and again, to get the money out, GSA has 
to spend the money 5 years and that is a very important aspect 
of this program.
    Ms. Norton. So what do you do, though, Mr. Miller, if 
somebody does not, you know, get up off his duff because he is 
as slow as GSA used to be, shall we say? What do you do? We 
have already got the contract. Maybe he is hiring some people, 
but he is not putting the money where the jobs are. You know, 
he has got this nice little piece of paper in his hand. What, 
if anything, can the government do, having already awarded him 
the money, except to say you should be doing better? See, we do 
not have that luxury this time.
    Mr. Miller. Madam Chair, there are probably a number of 
remedies available to GSA. A cancellation of the contract comes 
to mind.
    Ms. Norton. I guess that, though, is really the atom bomb. 
You know, that is a nuclear matter, and of course the 
contractor knows that it is nuclear, and he has never seen GSA 
do that under any circumstances, even when it virtually 
defaults. So what internal mechanisms would you or, for that 
matter, Mr. Guerin or any of the rest of you suggest for a 
contractor who is slow on the draw?
    Mr. Guerin. We also have remedies through the bonding 
agencies that bond the contractors. We can force them to 
perform. I think the nuclear bomb, as you referred to it, is 
there for us, but we have various ways to remedy the contracts 
before that time. Again, we are going to be tracking it very 
carefully, and we will know when projects are starting to get 
off track, and we will use every remedy we have available to 
us.
    Ms. Norton. I would like to know what those remedies are, I 
really would. I have no confidence in the "We will do 
everything we can" answers.
    Mr. Miller.
    Mr. Miller. The first remedy is for GSA to issue a cure 
notice, a notice asking the contractor to cure the defect. And 
that is the very first thing.
    Ms. Norton. And that could include: You are too slow, and 
we are held accountable for jobs, and we have not got any jobs 
to show, to speak of?
    Mr. Miller. I would think so, yes.
    Mr. Guerin. And we have liquidated damages, Congresswoman. 
If they do not perform, there is a contractual penalty that 
forces them to pay the government for their poor performance.
    Ms. Norton. When is the last time we have ever extracted 
that from a contractor?
    Mr. Guerin. We extract liquidated damages regularly for 
slow contractors who do not perform within the contractual time 
frame. If there is not a good reason and, again, a negotiated 
reason between GSA and the contractor to----
    Ms. Norton. Is that included in the contract? Do they 
understand that they do not pay us?
    Mr. Guerin. Yes.
    Ms. Norton. This is so important--sitting on top of 
government money, not acting, and no penalty for it. I am also 
looking at this, I will say to the staff, for the 
reauthorization to perhaps clarify that--about the necessity to 
do that.
    This is a very valuable piece of paper you have in your 
hand--that is, a government contract--and it is invaluable 
today.
    Mr. Guerin, you testified--I am here, reading from your 
testimony--"pre-apprentice and apprenticeship programs are an 
integral part. These programs will be established as 
contractual requirements--" that is excellent--"as construction 
projects." Meaning, that is in the RFP?
    Mr. Guerin. Yes.
    Ms. Norton. But then it says, "The funding provided in the 
act shall be used for costs of pre-apprentice and apprentice 
training. The programs will be modeled after a successful GSA 
program in the National Capital Region through which at least 
840 persons at 15 projects..."
    The problem with that is, if it is modeled after that, we 
are going to get the people who already are apprentices or 
qualified apprentices. All that does is say, make sure we have 
certified apprentices because of the history, not of GSA, but 
of the construction industry of simply using apprentices. 
Sometimes those apprentices are not certified from certified 
programs, and so we rectified that.
    What will we do about the fact that the underemployment has 
been among people of color and women who are not certified to 
do anything and who have not been recruited into these 
programs? Because there has been no formal program of the kind 
there was up until 1980. And you, of course, have been given 
almost no money to do it.
    The thing that caught me up--I loved the first part of 
this--is in the RFP, "but when we were doing exactly what we 
have been doing here for certified apprenticeship programs, we 
were not dealing with the pool that the $3 million you have 
seeks to target."
    That pool of people who already are apprentices, they just 
have to be in a certified apprenticeship program.
    Mr. Guerin. Right.
    Ms. Norton. I am looking for people who are in the pre-
apprentice category, largely women and people of color.
    Mr. Guerin. As soon as we got wind of the potential for 
funds in the bill, we got to work with DOL to understand their 
program better and to make sure that we were working with them 
directly to identify underrepresented areas and areas with 
economic disadvantages so we could identify with DOL--they are 
going to help us identify the locations where we can really use 
the best bang for the buck.
    You said it, Congresswoman. We do not have a lot of money 
on this program, so we want to be very effective in how we 
spend it. Large contracts. We can have apprenticeship, and we 
can require pre-apprenticeship as well through the contracts; 
but where we want to really spend our money is in training 
those pre-apprentices and in bringing them up to speed to get 
the job skills that you and I have talked about before to 
ensure that they understand what it is to hold a job and what 
it is to have the opportunity, and then move them into the 
apprenticeship programs that are already ongoing across the 
country.
    Ms. Norton. Even as we were getting money for this program, 
we realized we were not going to get enough, and we put you at 
a terrible disadvantage. We thought it important to get 
whatever money we could. We anticipate real disputes among 
people who look at these jobs, and we anticipate litigation. In 
fact, to be just clear, the 14th Amendment of the United States 
and Title VI of the 1964 Civil Rights Act is very explicit: You 
cannot spend money, Federal money or State money, that has 
discriminatory purposes. If people and various organizations 
see an overwhelmingly white workforce, it will court 
litigation. It could slow us up, and we have not given you 
enough money to proceed.
    When I looked closely at it, because of my past experience 
as head of the EEOC, it was clear to me that the problem is not 
in construction trades. The problem is in training, and it is 
not as if--there are, of course, qualified journeymen and 
journeywomen out here, but compared to the overwhelmingly white 
male workforce, they pale in numbers. So I expect, frankly, 
that qualified minority journeymen and apprentices will be 
easily hired. I really do. I think the States will grab them up 
even before you get ahold of them.
    What I am worried about are people in the street, going up 
there and counting people and saying: Well, I do not see a 
single X, Y, Z, and some of that may be bogus. You cannot tell 
anything, particularly when you are talking about a few million 
dollars here and a few million dollars there.
    I do not have any advice for you. The Secretary of 
Transportation is such a good friend of ours and was before the 
Full Committee. They are in the same predicament. They have a 
lot more money than you. They have only 20 million lousy 
dollars. The reason you got $3 million is proportionate.
    I got a question from the appropriators: If you cannot get 
as much as you ask for--and I forgot what I asked for--do you 
believe that it is fair to get a proportionate amount from the 
transportation funds?
    Well, in fairness, how could I say "no"?
    Well, you know, they got too few funds, and we got too few. 
I do not know if this will work, but I am going to have to ask 
you again, and my staff, to meet with them this week because I 
think we are all now on unplowed ground.
    I said to the Secretary of Transportation: You and I are in 
the construction business.
    Maybe there is some way for transportation and GSA money to 
be pooled so that, for example, you are not in the same place 
they are or that whatever programs they are using complement 
yours. I have no idea. All I know is that both of you have so 
little money that I am going to ask staff if you will--the 
Secretary has very much agreed to begin to search this out--if 
you will meet with the appropriate transportation staff and 
with the appropriate GSA staff just to investigate how to take 
a tiny bit of money and make it useful to us. And I am at a 
loss to put this terrible burden on you. I do not even believe 
there are a lot of folks out here, particularly doing pre-
apprenticeship work, whom I would trust.
    We are in touch with what we have heard are programs that 
are better than others. We do not know. DOL is problematic 
because they work with States. They have done a lousy job. They 
have done a lousy job of training in the construction trades.
    You heard in my opening statement that I said, shucks, 
there are billions of dollars they could have drawn upon to do 
training ever since 2000 based on our authorization bills. Only 
17 pecked at that money. So it is important to talk to DOL, but 
I do not think there is good State experience either, because 
they have chosen to take every living cent and put it on the 
street with whatever workforce they have.
    So this is real start-up stuff, and I want to work with 
you. I have a vested interest, very much like what is being 
done on small business. It is very much easier to do, frankly--
a smaller number of people, geared to understand the 
competitive process. Here you are dealing with people in the 
street who have large unemployment rates, just like the 
construction workers who will never, ever understand why they 
are not being employed, but who will understand if there are 
targeted projects around the country. There may not be in their 
area, but if there are targeted models around the country from 
which we can proceed--and listen to me on this--in the next 
reauthorization bill, my intention is to make these funds 
mandatory of the States in the next Transportation and 
Infrastructure reauthorization bill, so that you cannot take 
billions of dollars if you are the State of X, Y, Z, put 100 
percent of it in the ground, and not train a single person in 
your State. That is an outrage.
    The way we did it before was, in good faith, we said you 
are encouraged to take 0.5 of your funds and put it into 
training. They said, thank you. Encouraged, we will take that 
at face value. Zero. That is what most of them said--zero. I 
have asked the Secretary to get back with me as to how much in 
each State and to give me a list of what those States were.
    That being the state of the art, we want to work closely 
with you on what amounts to start-up for training because this, 
interestingly, is not about small business as much as we have 
worked on that, and you have done a good job on that. This is 
about jobs. It is not about jobs only for those who are out of 
work; it is about jobs for those who could not possibly get the 
jobs to do the work today, but who can use what amounts to a 
magical, once-in-a-lifetime opportunity to get a foothold into 
the construction trades.
    Mr. Guerin. Congresswoman, I just want to let you know 
that, based on your comments last week at the hearing, we did 
reach out to DOT, and we have started conversation with them 
about working together. We would definitely welcome the 
opportunity to participate in a program where you are bringing 
DOT and GSA together to look at this issue, because we are very 
interested in it.
    Ms. Norton. Thank you very much.
    At the end of this week, I will get from staff some sense 
of how those conversations are proceeding, given the great 
difficulty we see here.
    Is there anything else any of the rest of you, any others 
of you, or any of you, would like to say before we close this 
hearing?
    The hearing is very important to us, as you can see by how 
long I have kept you in it. I will tell you one thing: I do not 
intend to offer any excuses. I am not going to say GSA made me 
do it or that GSA did not do it or that the Social Security 
Administration did not do for GSA what it should have done. I 
am going to take responsibility, and that is why I am going to 
hold your feet to the fire. Expect another tracking hearing 
within about 2 weeks.
    Thank you very much.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
